I
No. 19-172

In The

Supreme Court of the United States

-*

Edina Harsay,
Petitioner,
v.
University of Kansas,
Respondent.

On Petition For Writ Of Certiorari
To The Supreme Court of the State of Kansas

PETITION FOR REHEARING
OF ORDER DENYING
PETITION FOR A WRIT OF CERTIORARI

Edina Harsay, Ph.D.
1100 Stone Meadows Dr.
Lawrence, Kansas 66049
(785) 856-3924
Petitioner, pro se

—1—

Table of Contents
Table of Contents

i

Table of Authorities Cited

ii

Petition for Rehearing of Order Denying
Petition for a Writ of Certiorari..........

1

Introduction

1

This Case Satisfies the Requirements
for "Stigma-Plus"................................

3

Infringement of My Liberty Interests
Violated Both Substantive and
Procedural Due Process...................

6

Lack of Candor and Misleading Statements
in a Court Opinion Violate Both Substantive
7
and Procedural Due Process......................
Conclusion

8

Certificate of Compliance

10

—11 —

Table of Authorities Cited
Cases
Doe v. Purdue Univ., No. 17-3565
(7th Cir. Jun. 28, 2019).....................

4,5

Greene v. McElroy, 360 U.S. 474 (1959)

4

Paul v. Davis, 424 U.S. 693 (1976).......

5

Zinermon v. Burch, 494 U.S. 113 (1990)

6

McKinney v. Pate, 20 F.3d 1550
(11th Cir. 1994).................................

6

Timbs v. Indiana, 139 S. Ct. 682 (2019)

7

Constitutional Provisions
U.S. Const, amend. XIV, § 1

passim

Books and Articles
David L. Shapiro, In Defense of Judicial Candor,
100 Harv. L. Rev. 731 (1987)..............................

8

-1-

Petition for Rehearing
of Order Denying
Petition for a Writ of Certiorari
Petitioner, Edina Harsay, respectfully submits
this Petition for Rehearing of an order denying her
petition for a writ of certiorari, pursuant to Rule 44.2
of the Rules of the Supreme Court of the United
States. The order denying the petition for writ of cer­
tiorari was filed on October 7, 2019.

Introduction
In the Question Presented in my Petition for Writ
of Certiorari, I stated claims under the Equal Protec­
tion Clause and the Due Process Clause of the Four­
teenth Amendment of the United States Constitu­
tion. Only the rationale for my claim under the
Equal Protection Clause is apparent in the Question,
because I could present only this rationale succinctly,
as required by this Court’s Rules. But my claim un­
der the Due Process Clause is also fundamental to
this case and it is the stronger of my two claims, so I
wish to ascertain that the Court is aware that I pre­
sented this as a separate claim that has more
grounds than what is apparent in the Question Pre­
sented. I do not make new claims under the Due
Process Clause in this Petition for Rehearing, but I
add clarifications to my claim based on a United
States Court of Appeals opinion that became avail­
able after I filed my Petition for Writ of Certiorari.

-2-

The concepts in the recent case are not novel, but the
legal analysis was more applicable to my situation
than the case law that I had found earlier.
The second rationale for my Petition for Rehear­
ing is that this Court decided not to grant my Peti­
tion for Writ of Certiorari without first requesting a
Response from the opposing party in this case, the
University of Kansas. I realize that it is very com­
mon not to request a Response when this would al­
most certainly needlessly burden the opposing party.
But in my particular situation, I believe that a Re­
sponse is critical for determining whether or not my
case is worthy of consideration. This is because I
claim that the Kansas Supreme Court knowingly
misrepresented both the legal and factual aspects of
my case in order to conceal that it was not following
Kansas law. Thus, it is not possible to fairly judge
my claims based primarily on the Opinion of the
Kansas Supreme Court.
On its own, a denial of my right to adjudication
under current Kansas law is probably not a violation
of my rights under federal law. But the misrepresen­
tations that conceal the denial of my rights under
Kansas law are a serious violation of my due process
rights under the Fourteenth Amendment, especially
because of the severe damage they cause to my repu­
tation and future employment prospects. Further­
more, it is not possible for this Court to ascertain
whether or not adequate state grounds exist for the
Kansas Supreme Court’s judgment without consider­
ing whether or not my case was properly presented
in that court’s Opinion. This surely is an unusual

-3—

and serious situation, and for that reason, especially
as a pro se litigant, I likely have little if any per­
ceived credibility without indication from the Uni­
versity that my claims of misrepresentation are cor­
rect.
The issue at hand is not a disagreement on facts
or disagreement on interpretation of the law. I be­
lieve that the Kansas, Supreme Court realized that
my legal arguments were correct, and for that rea­
son, failed to acknowledge their existence in its Opin­
ion, much less address them. The University likewise
did not refute my key legal arguments (it mostly ig­
nored them), nor did it deny that my presentation of
the facts were correct. Thus, I believe that a Re­
sponse from the University would support my claims,
at the very least by not refuting them.

This Case Satisfies the Requirements
for "Stigma-Plus"

My case started as an employment case in Kansas
state courts, but my claims before this Court concern
violations of my federal constitutional rights not by
an employer but by the Kansas Supreme Court. Most
of the relevant case law concerning the deprivation of
liberty interest of the sort I claimed in my Petition
for Certiorari (Pet. Cert, at 25) involve violation of
rights by an employer, and I did not cite this case
law because the analyses did not readily translate to
my case. However, a June 2019 opinion from the
United States Court of Appeals For the Seventh Cir­
cuit, Doe v. Purdue Univ., No. 17-3565 (7th Cir. Jun.

-428, 2019) likewise involved a liberty interest similar
to the sort I claim, and that case did not involve an
employer. It thus provides an example of a more
broadly relevant analysis that now helps me to more
clearly present my claim. The case involved harm to
a student’s reputation that resulted in expulsion
from a Navy ROTC program and loss of a scholar­
ship; the student failed in his claim for deprivation of
property interest, but he prevailed in his claim for
loss of “occupational liberty.” A thorough explanation
of his situation was sufficient to establish the depri­
vation of a liberty interest (that is, he did not need to
provide evidence of failed attempts to pursue his
chosen occupation).
I claim a deprivation of a liberty interest because
the misrepresentation of the University’s tenure re­
view by the Kansas Supreme Court severely harms
my professional reputation and severely restricts5 my
“occupational liberty,” the ability to pursue occupa­
tions in my chosen field, or even occupations in other
fields that require a similar level of ability and edu­
cation. Occupational liberty is protected by the Con­
stitution; see, e.g., Greene v. McElroy, 360 U.S. 474,
492 (1959). The effects of a violation of this sort by
an appellate court is especially severe in modern
times because courts post opinions on the World
Wide Web, and thus the opinions are readily avail­
able to anyone on Planet Earth with an internet con­
nection, even when this information is not intention­
ally sought. The days are long gone when court opin­
ions had to be accessed in law libraries and thus
were largely restricted to legal professionals. Be- i

-5cause of the potential for great harm, it has become
crucial for courts to present the facts of a case with
great care and honesty, and also to provide a post­
deprivation remedy when errors or misrepresenta­
tions occur.
In order for me to establish a claim on liberty in­
terests, this Court’s precedent requires that I satisfy
a “stigma-plus” test, which requires that I “show that
the state inflicted reputational damage accompanied
by an alteration in legal status” that deprived me of
a right that I previously held. See Doe v. Purdue
Univ., No. 17-3565, at *11 (7th Cir. Jun. 28, 2019);
Paul v. Davis, 424 U.S. 693, 708-09 (1976). The
“plus” component of the “stigma-plus” test is most
often the loss of employment status, but as in Doe, it
is more broadly defined. In my case, prior to the
Kansas Supreme Court’s Opinion, I had prevailed at
the Court of Appeals, which ordered the University
to perform an entirely new year-long tenure review
process for me (Pet. Cert., App. 22b). Because of the
extraordinary length of time it took for the District
Court to render an opinion in my case (Pet. Cert, at
3), and the necessity for me to wait for a resolution
(see Aplt. Motion for Rehear. Modif, Court of Ap­
peals), the remedy provided by the Court of Appeals
was the sole remaining route to regaining access to
my research lab (equipment, strains and reagents)
and recover my academic research career. The Kan­
sas Supreme Court deprived me of this remedy (a
change in my legal status), and thus its judgment
and opinion satisfy the requirements of “stigmaplus.”

r

-6-

INFRINGEMENT OF MY LIBERTY INTERESTS VIOLATED

Both Substantive and Procedural Due Process
In my Petition, I claimed that the deprivation of
my liberty interests was a violation of both substan­
tive and procedural due process rights (Pet. Cert, at
25), but I did not provide much argument or authori­
ties to support my claim. The claim of violation of
substantive due process is appropriate because much
of the harm caused by the Kansas Supreme Court’s
handling of my case cannot ever be procedurally
remedied, most of all the severe distress over a very
extended period of time, but also the loss of produc­
tivity, income, and irreparable harm to my reputa­
tion and academic career. Yet, it was possible to
remedy and prevent some of the future harm with a
rehearing and/or modification of the court’s Opinion,
and I requested this remedy (Pet. Cert, at 10). By
denying my request without any comment (Pet. Cert.
App. lc), the Kansas Supreme Court violated my
procedural due process rights by refusing to provide
a post-deprivation remedy. “[Deprivation of proce­
dural due process ‘is not complete unless and until
the State refuses to provide due process. Zinermon v.
Burch, 494 U.S. 113, 126 (1990). In other words, a
plaintiff does not suffer a violation of his procedural
due process rights unless and until the state refuses
to make available a means to remedy the depriva­
tion.” McKinney v. Pate, 20 F.3d 1550, 1563 (11th
Cir. 1994).

-7-

Lack of Candor and Misleading Statements in a
Court Opinion Violate Both Substantive and
Procedural Due Process
In my Petition for Certiorari, the primary reason
that I gave for my claim of a violation of my substan­
tive due process rights was that the Kansas Supreme
Court’s refusal to apply current law, and refusal to
acknowledge the existence of my legal arguments,
was a violation of our “system of ordered liberty”
(Pet. Cert, at 24-25). The court’s treatment of my
case was an unexpected “arbitrary action” and an
abuse of power. This is not how the public expects
our courts to behave. The Fourteenth Amendment
was originally intended to prevent and help fight
such abuse of governmental power. It was particu­
larly grievous to deny the right to a law (while con­
cealing that denial) when that law had the intent to
empower the People to challenge state agency deci­
sions; that is, to provide a mechanism to challenge
the abuse of power. Yet, while “substantive due proc­
ess” is a well-established concept and I believe that it
applies here, I recognize that it is controversial con­
cept, so it is beneficial to argue that procedural due
process also applies here. See, e.g., Timbs u. Indiana,
139 S. Ct. 682, 692 (2019) (“[T]he oxymoronic "sub­
stantive" "due process" doctrine has no basis in the
Constitution....”) (Justice Thomas, concurring in the
judgment.)
Professor David Shapiro has argued that judicial
candor, that is, honesty in explaining the reasons

-8-

behind a court’s decision in its published opinion, is
an absolute obligation:
In many ways, I believe, candor is to the judi­
cial process what notice is to fair procedure.
All procedural rights to be heard and to have
counsel depend on the adequacy of notice, and
thus a good case can be made that notice
should be a nonwaivable right. Similarly, the
fidelity of judges to law can be fairly measured
only if they believe what they say in their
opinions and orders, and thus a good case can
be made that the obligation to candor is abso­
lute.
David L. Shapiro, In Defense of Judicial Can­
dor, 100 Harv. L. Rev. 731, 750 (1987).
I believe that it would be fair and beneficial to as­
sert that judicial honesty is an essential component
of procedural due process.

Conclusion
The issue of perceived credibility when advocat­
ing as a pro se litigant is a disadvantage even for an
attorney. A further disadvantage for me (besides the
obvious lack of extensive expertise) is that, even if
this Court finds the issues that I present worthy of
its consideration, it may wish for a case of this na­
ture to be in more capable, expert hands before
granting a petition. It is true that the case is more
challenging for me than it would be for an attorney,
and I might make some mistakes. Yet, my status as

-9pro se is an integral part of this case. Had I been rep­
resented by an attorney, it is very unlikely that the
Kansas Supreme Court would have violated my due
process rights in the manner that it did. Academic
deference was not likely the sole reason for why I
was not treated with the same level of respect and
professionalism as is more typical of that court. A pro
se status on its own should not preclude me from
equal protection of the laws, and equal consideration
even before this Court. Lastly, the area of law in my
case should be understandable even by people who
are not legal experts. We should all understand our
rights under the Constitution, and we should all be
willing, and allowed, to defend those rights.
I respectfully request that this Court assist me in
defending my rights by reconsidering my case, and
deciding whether or not to grant my Petition for Writ
of Certiorari only after first considering a Response
from the University of Kansas.

Dated: November 1,2019

Respectfully submitted,
Edina Harsay, Ph.D.
1100 Stone Meadows Dr.
Lawrence, Kansas 66049
Phone: 785-856-3924
email: eharsay@gmail.com
Petitioner, pro se

-10-

CERTIFICATE OF COMPLIANCE

Edina Harsay
Petitioner
v.
University of Kansas
Respondent

As required by Supreme Court Rule 44.2, I certify
that this petition for rehearing of an order denying a
petition for a writ of certiorari is restricted to the
grounds specified by Rule 44.2. The petition for re­
hearing is presented in good faith and not for delay,
and it is restricted to substantial grounds not previ­
ously presented.
I declare under penalty of perjury that the forego­
ing is true and correct.
Executed on November 1, 2019.
£cAs^.

Edina Harsay

